Office of Audits
Report No. AUD-11-008


Material Loss Review of Hillcrest Bank,
Overland Park, Kansas




                                    May 2011
                                      Executive Summary

                                      Material Loss Review of Hillcrest Bank,
                                      Overland Park, Kansas
                                                                                       Report No. AUD-11-008
                                                                                                    May 2011

Why We Did The Audit
On October 22, 2010, the Kansas Office of the State Bank Commissioner (OSBC) closed Hillcrest Bank
(Hillcrest), Overland Park, Kansas, and the FDIC was named receiver. On November 18, 2010, the FDIC
notified the Office of Inspector General (OIG) that Hillcrest’s total assets at closing were $1.6 billion, and
the estimated loss to the Deposit Insurance Fund (DIF) was $312 million. As required by section 38(k) of
the Federal Deposit Insurance (FDI) Act, and as amended by the Dodd-Frank Wall Street Reform and
Consumer Protection Act, the OIG conducted a material loss review of the failure of Hillcrest.

The audit objectives were to (1) determine the causes of Hillcrest’s failure and the resulting material loss
to the DIF and (2) evaluate the FDIC’s supervision of Hillcrest, including the FDIC’s implementation of
the Prompt Corrective Action (PCA) provisions of section 38 of the FDI Act.


Background
Hillcrest was established in 1987 as a state-chartered nonmember bank. The institution provided
full-service banking and had 41 branches throughout Kansas, Missouri, Colorado, and Texas. Hillcrest’s
lending strategy focused on commercial real estate (CRE), with an emphasis on acquisition, development,
and construction (ADC) in 22 states and The Bahamas. The bank was wholly-owned by Hillcrest
Bancshares, Inc. (HBI) of Overland Park, Kansas, which was a one-bank holding company.

Hillcrest originally opened in Kansas City, Missouri, and was almost immediately acquired by the newly
formed HBI. The bank subsequently became affiliated with the Oak Park Bank, Overland Park, Kansas,
and The Olathe Bank, Olathe, Kansas, through the common ownership of two principal shareholders. On
December 31, 1996, Hillcrest and The Olathe Bank merged with the Oak Park Bank. In addition,
Hillcrest absorbed the American Bank, Wichita, Kansas, in November 1999; the First State Bank of Hill
County, Dallas, Texas, in December 2005; and the Colonial Bank, Loveland, Colorado, in November
2006. Hillcrest was also affiliated with Hillcrest Bank Florida, Naples, Florida, which failed in
October 2009.Au

Audit Results
Causes of Failure and Material Loss

Hillcrest failed because its Board of Directors (Board) and management did not effectively manage the
risks associated with the institution’s significant concentration in ADC loans. From 2005 to 2008,
Hillcrest’s Board and management aggressively grew the bank’s ADC loan portfolio. Many of the loans
originated or acquired during this period were outside of the bank’s local business area. This strategy
greatly elevated the institution’s risk profile and its vulnerability to an economic downturn. As real estate
markets in the bank’s lending areas began to decline, the institution’s CRE loans (particularly its ADC
loans) were negatively affected. Weak credit administration practices also contributed to the bank’s loan
quality problems. Management did not diversify the bank’s loan portfolio or adjust its risk management
infrastructure in a timely manner in response to the deterioration in its loan portfolio. The resulting
substantial loan losses eliminated Hillcrest’s earnings and depleted capital.

Although Hillcrest’s Board and management curtailed lending activities in 2008 and attempted to pursue
corrective actions to improve the bank’s deteriorating financial condition, the ADC loan and other loan



                                To view the full report, go to www.fdicig.gov
   Executive Summary
                                      Material Loss Review of Hillcrest Bank,
                                      Overland Park, Kansas
                                                                                       Report No. AUD-11-008
                                                                                                    May 2011

losses rendered the bank Critically Undercapitalized. Because Hillcrest was unable to raise sufficient
capital to support safe and sound operations, the OSBC closed the bank in October 2010.

The FDIC’s Supervision of Hillcrest

Between 2005 and 2010, the FDIC and the OSBC conducted timely examinations of Hillcrest and made
recommendations to strengthen the bank’s risk management practices. Following the 2008 examination,
the FDIC and the OSBC downgraded the bank’s composite and component ratings and addressed
weaknesses in Hillcrest’s management through the implementation of a Bank Board Resolution. The
FDIC and the OSBC subsequently monitored Hillcrest’s condition through visitations and examinations,
and in 2009, addressed unsafe and unsound practices by implementing a Cease and Desist Order. Despite
the increased supervisory attention and Hillcrest’s efforts to address its loan concentrations and
management deficiencies, the institution was not prepared to handle the rapid, severe, and prolonged
economic downturn that occurred. As a result, the bank’s financial condition became critically deficient,
and the Board and management were unable to restore the institution to a safe and sound condition.

With the benefit of hindsight, greater supervisory emphasis on, and a more forward-looking assessment
of, Hillcrest’s management practices and risk profile may have been prudent during its growth period,
taking into consideration Hillcrest’s:

        (1) large and growing ADC concentrations, which made the bank vulnerable to an economic
            downturn;
        (2) repeat loan review deficiencies and other credit administration weaknesses;
        (3) reluctance to adequately staff the credit department; and
        (4) significant amount of out-of-area lending.

Examiners could have recommended during earlier examinations that Hillcrest focus greater attention on
analyzing the potential impact of a downturn in the economy on its operations, including the need for a
viable plan to mitigate the bank’s concentration risks. Further, the FDIC could have placed greater
emphasis on Hillcrest’s management practices and risk profile when assigning ratings during the 2007
examination. Such an approach could have reinforced supervisory expectations and increased
supervisory oversight. It may also have influenced the Board and management to reduce its CRE and
ADC exposure prior to the downturn in the real estate market and commit to a plan and a timeline for
implementing corrective actions at a critical time.

The FDIC has taken a number of important actions to enhance its supervision program based on the
lessons learned from failures during the financial crisis. With respect to the issues discussed in the report,
the FDIC has, among other things, reiterated broad supervisory expectations with regard to managing risk
associated with CRE and ADC concentrations. Further, the FDIC completed a training initiative in 2010
for its entire supervisory workforce that emphasizes the need to assess a bank’s risk profile using forward-
looking supervision. The training addressed the need for examiners to consider management practices as
well as current financial performance or trends in assigning ratings, as allowable under existing
examination guidance.




                                To view the full report, go to www.fdicig.gov
   Executive Summary
                                     Material Loss Review of Hillcrest Bank,
                                     Overland Park, Kansas
                                                                                      Report No. AUD-11-008
                                                                                                   May 2011


Management Response
The Director of the FDIC’s Division of Risk Management Supervision, provided a written response,
dated May 12, 2011, to a draft of the report. In the response, the Director reiterated the OIG’s
conclusions regarding the causes of Hillcrest’s failure and described key supervisory actions that the
FDIC and the OSBC took to address the bank’s deteriorating financial condition. The response also
stated that RMS recognized the threat that institutions with high-risk profiles, such as Hillcrest, pose to
the DIF and that RMS had issued a Financial Institution Letter to banks on Managing Commercial Real
Estate Concentrations in a Challenging Environment that re-emphasizes the importance of robust credit
risk-management practices for institutions with concentrated CRE exposures. Additionally, the response
indicated that RMS had issued updated guidance reminding examiners to take appropriate action when
those risks are imprudently managed.




                               To view the full report, go to www.fdicig.gov
                                  Contents
                                                                     Page


Background                                                             2

Causes of Failure and Material Loss                                    3
 Aggressive Growth Concentrated in ADC Lending                         3
 Credit Administration Weaknesses                                      6

The FDIC’s Supervision of Hillcrest                                    9
 Supervisory History                                                  10
 Supervisory Response Related to Key Risks                            11
 Implementation of PCA                                                20

OIG Evaluation of Corporation Comments                                22

Appendices 
 1. Objectives, Scope, and Methodology                                23
 2. Glossary of Terms                                                 26
 3. Acronyms                                                          28
 4. Corporation Comments                                              29

Tables
 1. Financial Information for Hillcrest, 2005 to 2010                  2
 2. Hillcrest’s ADC Loans Compared to Peer Group                       4
 3. Examinations and Visitations of Hillcrest, 2005 to 2010           11
 4. Hillcrest’s Capital Levels Relative to PCA Thresholds for Well    21
    Capitalized Institutions

Figures
  1. Composition of Hillcrest’s Loan Portfolio, 2005 to 2010           4
  2. Net Charge-offs on Loans and Leases as of September 30, 2010      6
Federal Deposit Insurance Corporation                                                               Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                Office of Inspector General


DATE:                                     May 18, 2011

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Risk Management Supervision


                                          /Signed/
FROM:                                     Mark F. Mulholland
                                          Deputy Assistant Inspector General for Audits

SUBJECT:                                  Audit Report Entitled, Material Loss Review of Hillcrest
                                          Bank, Overland Park, Kansas (Report No. AUD-11-008)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, and as amended
by the Dodd-Frank Wall Street Reform and Consumer Protection Act (the Financial
Reform Act), the Office of Inspector General (OIG) conducted a material loss review
(MLR) of the failure of Hillcrest Bank (Hillcrest), Overland Park, Kansas. The Kansas
Office of the State Bank Commissioner (OSBC) closed the bank on October 22, 2010, and
the FDIC was named receiver. On November 18, 2010, the FDIC notified the OIG that
Hillcrest’s total assets at closing were $1.6 billion, and the estimated loss to the Deposit
Insurance Fund (DIF) was $312 million. The estimated loss exceeds the $200 million
MLR threshold for losses occurring between January 1, 2010 and December 31, 2011, as
established by the Financial Reform Act.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this material loss review were to (1) determine the causes of Hillcrest’s
failure and the resulting material loss to the DIF and (2) evaluate the FDIC’s supervision
of Hillcrest, including the FDIC’s implementation of the PCA provisions of section 38 of
the FDI Act. The report does not contain formal recommendations. Instead, as major
causes, trends, and common characteristics of institution failures are identified in our
material loss reviews, we will communicate those to FDIC management for its
consideration. As resources allow, we may also conduct more comprehensive reviews of
specific aspects of the FDIC’s supervision program and make recommendations as
warranted.1
1
 A further discussion of OIG-related coverage of financial institution failures can be found in the
Objectives, Scope, and Methodology section of this report.
Appendix 1 contains details on our objectives, scope, and methodology. We also include
several other appendices to this report. Appendix 2 contains a glossary of key terms;
Appendix 3 contains a list of acronyms; and Appendix 4 contains management’s written
comments on a draft of this report.

We note that, in conjunction with other organizational changes made to enhance the
FDIC’s ability to carry out its new and enhanced responsibilities under the Financial
Reform Act, the Division of Supervision and Consumer Protection (DSC) became the
Division of Risk Management Supervision effective February 13, 2011. As a result of the
timing of our review, we refer to DSC throughout this report.


Background
Hillcrest was established in 1987 as a state-chartered nonmember bank. The institution
provided full-service banking and had 41 branches throughout Kansas, Missouri,
Colorado, and Texas. Hillcrest’s lending strategy focused on commercial real estate
(CRE), with an emphasis on acquisition, development, and construction (ADC) in
22 states and The Bahamas. The bank was wholly-owned by Hillcrest Bancshares, Inc.
(HBI) of Overland Park, Kansas, which was a one-bank holding company.

Hillcrest originally opened in Kansas City, Missouri, and was almost immediately
acquired by the newly formed HBI. The bank subsequently became affiliated with the
Oak Park Bank, Overland Park, Kansas, and The Olathe Bank, Olathe, Kansas, through
the common ownership of two principal shareholders. On December 31, 1996, Hillcrest
and The Olathe Bank merged with the Oak Park Bank. In addition, Hillcrest absorbed the
American Bank, Wichita, Kansas, in November 1999; the First State Bank of Hill County,
Dallas, Texas, in December 2005; and the Colonial Bank, Loveland, Colorado, in
November 2006. Hillcrest was also affiliated with Hillcrest Bank Florida, Naples,
Florida,2 through the common ownership of two principal shareholders. Table 1
summarizes selected financial information for Hillcrest as of September 30, 2010 and for
the 5 preceding calendar years.

Table 1: Financial Information for Hillcrest, 2005 to 2010
         Financial
     Measure ($000s)      Sep-10        Dec-09           Dec-08       Dec-07       Dec-06        Dec-05
    Total Assets          1,583,611     1,766,482        1,927,090    1,779,588    1,556,530     1,320,172
    Total Loans           1,025,505     1,260,377        1,586,442    1,545,125    1,300,912       967,600
    Total Investments       431,986       406,100          305,208      193,730      214,572       313,399
    Total Deposits        1,488,785     1,590,997        1,619,522    1,442,004    1,242,284     1,012,719
    Brokered Deposits       266,638       395,394          636,136      436,346      307,377       159,620
    Net Income (Loss)      (69,281)      (83,469)           (4,966)      18,670       28,501        18,174
Source: Uniform Bank Performance Reports (UBPR) for Hillcrest.




2
 Hillcrest Bank Florida, Naples, Florida, was closed by the Florida Office of Financial Regulation on
October 23, 2009.

                                                     2
Causes of Failure and Material Loss

Hillcrest failed because its Board of Directors (Board) and management did not effectively
manage the risks associated with the institution’s significant concentration in ADC loans.
From 2005 to 2008, Hillcrest’s Board and management aggressively grew the bank’s ADC
loan portfolio. Many of the loans originated or acquired during this period were outside of
the bank’s local business area. This strategy greatly elevated the institution’s risk profile
and its vulnerability to an economic downturn. As real estate markets in the bank’s
lending areas began to decline, the institution’s CRE loans (particularly its ADC loans)
were negatively affected. Weak credit administration practices also contributed to the
bank’s loan quality problems. Management did not diversify the bank’s loan portfolio or
adjust its risk management infrastructure in a timely manner in response to the
deterioration in its loan portfolio. The resulting substantial loan losses eliminated
Hillcrest’s earnings and depleted capital.

Although Hillcrest’s Board and management curtailed lending activities in 2008 and
attempted to pursue corrective actions to improve the bank’s deteriorating financial
condition, the ADC loan and other loan losses rendered the bank Critically
Undercapitalized. Because Hillcrest was unable to raise sufficient capital to support safe
and sound operations, the OSBC closed the bank in October 2010.

Aggressive Growth Concentrated in ADC Lending

From December 31, 2004 to December 31, 2007, Hillcrest’s loan portfolio grew
from $892.4 million to $1.5 billion (or 70 percent), funded, in part, with brokered
deposits. During this period, Hillcrest’s concentration in ADC loans significantly
increased, and its loan portfolio became less diversified. As of December 31, 2004,
Hillcrest’s concentration in ADC loans represented 34 percent of the loan portfolio, and
by December 31, 2007, ADC loans represented 63 percent of the loan portfolio. The vast
majority of these ADC loans were for land development and commercial construction,
such as condominium projects, shopping centers, office buildings, and raw land.
Examination reports issued between 2005 and 2010 consistently identified the bank’s high
levels of CRE and ADC loan concentrations and indicated a need for management to
closely monitor the concentrations. Figure 1 illustrates the extent to which Hillcrest’s loan
portfolio was concentrated in ADC loans for the 5 years preceding the bank’s failure.




                                              3
Figure 1: Composition of Hillcrest’s Loan Portfolio, 2005 to 2010

                                                         Composition and Growth of Hillcrest's
                                                                    Loan Portfolio


                                          $1,600                                           $90.9
                                                                               $81.2
      Gross Loans and Leases (Millions)




                                          $1,400                               $234.7      $288.6
                                                                $75.2
                                                                                                        $77.4
                                          $1,200                               $232.8
                                                                $269.8                     $260.8       $181.3
                                          $1,000                                                                       $59.3
                                                      $43.4
                                                                                                        $265.7        $137.5
                                                     $212.3     $211.4
                                           $800
                                                                                                                      $288.6
    Source: Uniform
            $600    Bank Performance Reports (UBPR) for Hillcrest Bank.
                     $287.8
                                                                              $1,004.0     $950.6
                                           $400                 $750.5                                  $737.8
                                                                                                                      $541.3
                                                     $428.3
                                           $200

                                             $0
                                                   Dec-2005   Dec-2006     Dec-2007      Dec-2008   Dec-2009     Sep-2010
                                                                                Period Ended


                                                   ADC    Other CRE      Commercial & Industrial    All Other Loans

Source: Reports of Condition and Income (Call Report) for Hillcrest.
Note: The amounts shown in Figure 1 include unearned income.

The extent of a bank’s loan concentration can be measured in terms of its percentage of
total capital and as a percentage of average gross loans. As shown in Table 2, ADC loans,
as a percentage of total capital and as a percentage of average gross loans, exceeded 300
percent and 40 percent, respectively, from 2005 to 2009. These concentration levels
substantially exceeded Hillcrest’s peer group3 averages.

Table 2: Hillcrest’s ADC Loans Compared to Peer Group
                                                      ADC Loans as a Percentage of             ADC Loans as a Percentage of
                                                               Total Capital                        Average Gross Loans
     Year Ended                                         Hillcrest      Peer Group               Hillcrest       Peer Group
        2005                                             319.04            107.13                40.82             13.12
        2006                                             456.80            136.09                50.81             16.86
        2007                                             545.81            147.33                62.95             18.61
        2008                                             537.01            139.42                61.95             18.01
        2009                                             813.81            97.83                 59.62             14.56
Source: UBPRs for Hillcrest.




3
  Institutions are assigned to 1 of 15 peer groups based on asset size, number of branches, and whether the
institution is located in a metropolitan or non-metropolitan area. Hillcrest’s peer group included all insured
institutions with assets between $1 billion and $3 billion.


                                                                                   4
In December 2006, the federal bank regulatory agencies issued Joint Guidance, entitled
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices
(Joint Guidance) to reinforce existing regulations and guidelines for real estate lending
and safety and soundness.4 The Joint Guidance focuses on those CRE loans for which
cash flow from real estate is the primary source of repayment (i.e., ADC lending). The
Joint Guidance states that the agencies had observed an increasing trend in the number of
institutions with concentrations in CRE loans and noted that rising CRE concentrations
could expose institutions to unanticipated earnings and capital volatility in the event of
adverse changes in the general CRE market. Although the Joint Guidance does not
establish specific CRE lending limits, it does define criteria that the agencies use to
identify institutions potentially exposed to significant CRE concentration risk. According
to the Joint Guidance, an institution that has experienced rapid growth in CRE lending,
has notable exposure to a specific type of CRE, or is approaching or exceeds the following
supervisory criteria may be identified for further supervisory analysis of the level and
nature of its CRE concentration risk:

        Total CRE loans representing 300 percent or more of total capital where the
         outstanding balance of the institution’s CRE loan portfolio has increased by
         50 percent or more during the prior 36 months; or

        Total loans for construction, land development, and other land (referred to in this
         report as ADC) representing 100 percent or more of total capital.

As of December 31, 2007, Hillcrest’s CRE loans represented 682 percent of the
institution’s total capital. Further, the bank’s ADC loan concentration at year-end 2007
represented 545 percent of total capital. Both of these concentrations significantly
exceeded the levels defined in the Joint Guidance as possibly warranting further
supervisory analysis.

As noted in Hillcrest’s May 2009 examination report, the economic downturn caused a
diminished demand for housing, lack of take-out financing options, depressed collateral
values, and illiquid borrowers and guarantors. This resulted in an upward trend in
classified credits. Specifically, Hillcrest’s highly concentrated ADC lending strategy led
to a dramatic increase in the bank’s Adversely Classified Items Coverage Ratio,5 from
46 percent as of March 31, 2007 to 179 percent as of March 31, 2009. As shown in
Figure 2, $197.5 million of the $238.7 million in loan charge-offs by Hillcrest between
January 1, 2005 and September 30, 2010 pertained to ADC loans.




4
  The guidance was issued jointly by the Office of the Comptroller of the Currency, the Board of Governors
of the Federal Reserve System, and the FDIC.
5
  The Adversely Classified Items Coverage Ratio is a measure of the level of asset risk and the ability of
capital to protect against that risk. A lower ratio is desirable because a higher ratio indicates exposure to
poor quality assets and may also indicate less ability to absorb the consequences of bad loans.


                                                      5
 Figure 2: Net Charge-offs on Loans and Leases as of September 30, 2010
                                         (Dollars in Thousands)




                                 $9,119 $12,846
                     $19,235




                                                                    $197,520




                           ADC     Other CRE   Commercial & Industrial   Other

 Source: Call Reports for Hillcrest.

Other Lending Ratios. In addition to high CRE and ADC loan concentrations,
Hillcrest’s risk profile was increased by individual borrower concentrations and
substantial lending outside of the bank’s primary business areas. The following points
illustrate these risks.

       As of March 31, 2007, Hillcrest had eight affiliated credit relationships totaling
        $393.8 million, or 260 percent of Tier 1 Capital, and as of March 31, 2009,
        Hillcrest’s loan portfolio included 11 affiliated credit relationships totaling
        $581 million, or 378 percent of Tier 1 Capital.

       As of March 31, 2006, approximately 58 percent of Hillcrest’s loan portfolio
        consisted of credits in 22 states and The Bahamas. The bank’s out-of-area loans
        totaled $645.7 million, or 515 percent of Tier 1 Capital. Many of these loans were
        in areas heavily impacted by declining real estate prices in 2007 and 2008, such as
        Florida, Arizona, Nevada, and California.

Credit Administration Weaknesses

Examinations conducted during the 5-year period prior to Hillcrest’s failure identified
various credit administration weaknesses that contributed to the bank’s loan quality
problems. Although the economic decline adversely affected banks’ loan portfolios in
general, the following credit administration weaknesses hampered Hillcrest’s ability to
effectively measure, monitor, and control risks in its loan portfolio.


                                                   6
Loan Review. Lending institutions should maintain a strong loan review and associated
risk rating system that identifies deteriorating credit trends early. However, loan review
weaknesses were continually identified by examiners at Hillcrest. For example:

          The April 2005 examination report stated that although the bank’s staffing levels
           appeared adequate to appropriately manage the bank’s daily affairs, management
           should closely monitor and assess these levels in the construction/development
           lending department and the loan review section to ensure they would be able to
           handle the volume of work in their respective departments going forward.

          The May 2007 examination report noted that it appeared the bank would benefit
           from more resources in the loan review area, particularly in light of the downturn
           in economic conditions and the bank’s increased asset quality problems. In
           addition, examiners noted that the loan portfolio had grown substantially, and
           additional responsibilities had been delegated to the credit department, such as
           appraisal reviews. However, the number of loan review personnel had remained
           relatively unchanged.

          Examiners reported in the 2009 examination that independent loan review
           personnel were minimally involved in the review and risk-rating of problem loans.
           Instead, the servicing loan officer was accountable for analyzing his/her own
           portfolio of problem credits, and shared responsibility with the Special Asset
           Committee to properly risk-rate the loans.

According to the FDIC’s Risk Management Manual of Examination Policies (Examination
Manual), a bank’s loan officers should be responsible for ongoing credit analysis and the
prompt identification of emerging problems. The Examination Manual cautions that
institutions should avoid overreliance on loan officers, adding that management should
ensure, when feasible, that all significant loans are reviewed by individuals who are not
part of, or influenced by, anyone associated with the loan approval process. While
examiners found loan officers’ analyses to generally reflect the problems within most
credit relationships, this process often did not result in an appropriate risk rating. As a
result, examiners downgraded a number of loans and found the bank’s internal loan Watch
List6 to be substantially inaccurate.

Loan Monitoring. The Examination Manual states that lending institutions should
maintain effective systems and controls for identifying, monitoring, and addressing asset
quality problems in a timely manner. The institutions should also develop criteria for
obtaining reappraisals or reevaluations as part of a program of prudent portfolio review
and monitoring techniques, even when additional financing is not being contemplated.
Examples of such situations include large credit exposures and out-of-area loans.




6
    A Watch List is a record of a bank’s loans that have received less than satisfactory risk ratings.


                                                          7
Hillcrest’s ADC loan portfolio included both large credit exposures and out-of-area loans.
Weaknesses related to Hillcrest’s monitoring of ADC projects were noted in examination
reports as described below.

      The April 2005 examination report noted that ongoing project monitoring was not
       always supported with documented draw requests and collateral inspection reports.
       In addition, file comments by loan officers, subsequent to the initial underwriting
       presentation, were lacking, particularly on large and complex credits.

      The May 2007 examination report indicated that the level of classified items had
       significantly increased since the prior examination. Examiners concluded that
       these adverse classifications were the direct result of a softening in the housing and
       development sector, weakening economic conditions in the Florida real estate
       market, or inadequate and improper monitoring and handling of the credit
       relationship by the loan officer. Examiners noted instances in which the terms and
       conditions in the loan covenants and/or presentations to the Executive Loan
       Committee were not being met. Specifically, loan officers were not monitoring or
       enforcing requirements for obtaining financial information as defined in the loan
       covenants. Other unique or nonstandard covenants, such as requiring a certain
       amount of certificates of deposit be pledged before releasing other collateral, were
       not met.

Loan File Documentation. Part 364 of the FDIC Rules and Regulations, Appendix A,
Interagency Guidelines Establishing Standards for Safety and Soundness, requires
institutions to establish and maintain loan documentation practices that, among other
things, enable institutions to: make an informed lending decision and assess risk, as
necessary, on an ongoing basis; identify the purpose of a loan and the source of
repayment; assess the ability of the borrower to repay the indebtedness in a timely
manner; and demonstrate appropriate administration and monitoring of loans. Financial
Institution Letter (FIL) 22-2008, dated March 17, 2008, Managing Commercial Real
Estate Concentrations in a Challenging Environment, also emphasizes the importance of
institutions maintaining updated borrower financial and analytical information. As
described below, examiners consistently identified loan file documentation deficiencies
during examinations of Hillcrest.

      The May 2007 examination report noted deficiencies in approximately 49 percent
       of the total dollar volume of loans reviewed (or 31 percent of the total number of
       loans reviewed). The most prevalent exceptions related to missing or outdated
       financial information for borrowers and/or guarantors. Isolated instances of a
       missing proof of insurance and an inadequate appraisal were also noted that
       resulted in violations of the FDIC Rules and Regulations, Part 323 – Appraisals,
       and the Kansas Administration Regulations (KAR) on loan documentation
       requirements.




                                             8
      The May 2008 examination report noted loan file documentation deficiencies, such
       as four instances in which appraisals were determined to be incomplete or
       inadequate and missing or outdated financial information. The 2009 examination
       report indicated that documentation deficiencies were found in 34 percent of the
       loans that were reviewed. Of particular concern was that the majority of the
       exceptions involved a lack of data, such as current borrower and guarantor
       financial and income information, which is needed to support prudent lending
       decisions.

Global Financial Analysis. FIL-22-2008 suggests that financial institutions with
significant CRE concentrations maintain updated financial and analytical information to
help manage concentrations through changes in market conditions. FIL-22-008 states that
“Global financial analysis of obligors should be emphasized, as well as concentrations of
credit to individual builders or developers in a loan portfolio.” This level of analysis is
essential in determining whether it is prudent to continue to work with a borrower or
pursue an exit strategy. However, examiners indicated that Hillcrest’s loan department
was not utilizing global cash flow analysis in analyzing credits. For example:

      The May 2007 examination report identified several loans that were originated
       without evidence of a global financial analysis.

      Examiners advised Hillcrest’s management during the May 2009 examination that
       the lending department needed to adjust its analytical requirements to provide a
       more global assessment of borrower/guarantor ability to carry a project, with
       consideration given to all of the borrower/guarantor debt and cash resources.
       Examiners reported that, for several credit relationships, loan officers failed to
       account for all contingent liabilities and cash sources for loan guarantors.


The FDIC’s Supervision of Hillcrest

Between 2005 and 2010, the FDIC and the OSBC conducted timely examinations of
Hillcrest and made recommendations to strengthen the bank’s risk management practices.
Following the 2008 examination, the FDIC and the OSBC downgraded the bank’s
composite and component ratings and addressed weaknesses in Hillcrest’s management
through the implementation of a Bank Board Resolution (BBR). The FDIC and the OSBC
subsequently monitored Hillcrest’s condition through visitations and examinations, and in
2009, addressed unsafe and unsound practices by implementing a Cease and Desist Order
(C&D). Despite the increased supervisory attention and Hillcrest’s efforts to address its
loan concentrations and management deficiencies, the institution was not prepared to
handle the rapid, severe, and prolonged economic downturn that occurred. As a result, the
bank’s financial condition became critically deficient, and the Board and management
were unable to restore the institution to a safe and sound condition.




                                             9
With the benefit of hindsight, greater supervisory emphasis on, and a more forward-
looking assessment of, Hillcrest’s management practices and risk profile may have been
prudent during its growth period, taking into consideration Hillcrest’s:

         (1) large and growing ADC concentration, which made the bank vulnerable to an
             economic downturn;
         (2) repeat loan review deficiencies and other credit administration weaknesses;
         (3) reluctance to adequately staff the credit department; and
         (4) significant amount of out-of-area lending.

Examiners could have recommended during earlier examinations that Hillcrest focus
greater attention on analyzing the potential impact of a downturn in the economy on its
operations, including the need for a viable plan to mitigate the bank’s concentration risks.
Further, the FDIC could have placed greater emphasis on Hillcrest’s management
practices and risk profile when assigning ratings during the 2007 examination. Such an
approach could have reinforced supervisory expectations and increased supervisory
oversight. It may also have influenced the Board and management to reduce its CRE and
ADC exposure prior to the downturn in the real estate market and commit to a plan and a
timeline for implementing corrective actions at a critical time.

The FDIC has taken a number of important actions to enhance its supervision program
based on the lessons learned from failures during the financial crisis. With respect to the
issues discussed in this report, the FDIC has, among other things, reiterated broad
supervisory expectations with regard to managing risk associated with CRE and ADC
concentrations. Further, the FDIC completed a training initiative in 2010 for its entire
supervisory workforce that emphasizes the need to assess a bank’s risk profile using
forward-looking supervision. The training addressed the need for examiners to consider
management practices as well as current financial performance or trends when assigning
ratings, as allowable under existing examination guidance.

Supervisory History

Between 2005 and 2010, the FDIC and the OSBC conducted six onsite examinations of
Hillcrest as required by the FDI Act.7 The FDIC and the OSBC also conducted two onsite
visitations and monitored Hillcrest’s financial condition using various offsite monitoring
tools. The 2009 and 2010 examinations and both visitations were conducted jointly by the
FDIC and the OSBC. Table 3 summarizes key supervisory information pertaining to the
examination and visitations.




7
  Section 337.12 of the FDIC Rules and Regulations, which implements section 10(d) of the FDI Act,
requires annual full-scope, onsite examinations of every state nonmember bank at least once every
12-month period and allows for 18-month intervals for certain small institutions (total assets of less than
$500 million) if certain conditions are satisfied.


                                                      10
Table 3: Examinations and Visitations of Hillcrest, 2005 to 2010
    Examination    Examination                    Supervisory        Enforcement        Violations of Law
     Start Date     As of Date       Agency         Ratings            Actions          or Contravention
                                                                                            of Policy
                                                                                            Reported
     04/01/2005     12/31/2004         FDIC          111121/1            N/A                    
     05/08/2006     03/31/2006         OSBC          111121/1            N/A                    
     05/07/2007     03/31/2007         FDIC          122121/2            N/A                    
     05/27/2008     03/31/2008         OSBC          333333/3         BBR dated                 
                                                                       09/2008
     11/17/2008     09/30/2008         Joint         333333/3         BBR still in
        (V)*                                                            effect
     05/04/2009     03/31/2009         Joint         454544/4         C&D dated                
                                                                       10/2009
    11/12/09 (V)    09/30/2009         Joint         454544/4         C&D still in
                                                                        effect
     06/07/2010     03/31/1010         Joint         554545/5         C&D still in             
                                                                        effect
Source: Reports of Examination, Visitation Reports, and enforcement actions for Hillcrest.
*V – Visitation.

In addition to onsite examinations, the FDIC conducted offsite monitoring, which
generally consisted of periodic contacts with bank management to discuss current or
emerging issues and the use of various offsite monitoring tools, including the Offsite
Review List (ORL),8 to monitor institutions between examinations. The FDIC contacted
bank officials as part of the pre-examination planning process and to follow up on
emerging issues or concerns. Hillcrest was flagged by the ORL for offsite review
due to the high volume of past-due loans in the March 31, 2008; June 30, 2008; and
September 30, 2008 Call Reports. During the May 2008 examination, the institution was
downgraded to a composite “3” CAMELS rating. Hillcrest was again flagged by the ORL
for offsite review based on the June 30, 2009 Call Report for concerns regarding the
adequacy of the bank’s Allowance for Loan and Lease Losses (ALLL) and its PCA
category.

Supervisory Response Related to Key Risks

As summarized below, examiners consistently identified Hillcrest’s loan concentrations
and credit administration weaknesses in examination and visitation reports. In addition, as
the deterioration in the bank’s financial condition became evident, regulators worked to
address management weaknesses and improve the bank’s risk management practices. In
retrospect, a more forward-looking assessment of Hillcrest’s risk profile, especially the
bank’s exposure to a sustained downturn in the real estate market, may have been prudent
during earlier examinations, particularly the May 2007 examination.




8
 The FDIC electronically generates an Offsite Review List each quarter and performs offsite reviews for
each 1-and 2-rated bank that appears on the list.


                                                     11
2005 Supervisory Activities

In the April 2005 examination, examiners assigned Hillcrest a composite “1” CAMELS
rating, concluding that the overall condition of the bank was sound. However, examiners
rated Hillcrest’s Liquidity component a “2” because of the bank’s use of brokered deposits
and occasional use of borrowing lines to fund growth. While the bank’s Asset Quality
component was considered strong (“1”), examiners recommended that the loan review
system be enhanced by including ongoing reviews of the large and complex relationships.
At that time, ongoing reviews of the bank’s large credit relationships were not being
conducted. Examiners recommended that loan officers continue to make file comments
subsequent to the initial underwriting presentation, which would further enhance credit
administration, particularly on the more complex credits.

Examiners also rated management’s performance strong (“1”). However, examiners noted
that while the bank’s staffing levels appeared adequate to appropriately manage the bank’s
daily affairs, management should closely monitor and assess the staffing levels in the
construction/development lending department and the loan review section to ensure that
staff could handle the volume of work in their respective departments going forward.

2006 Supervisory Activities

The OSBC’s May 2006 examination report noted that the overall condition of the
institution was healthy, with quality leadership and an informed Directorate. Examiners
assigned a composite “1” CAMELS rating along with a “1” rating in all components
except Liquidity. Examiners reported that asset quality continued to improve and was a
leading indicator of the institution’s strength.

Although asset quality was determined to be strong, examiners encouraged management
to continually address credit administration policies relative to lending practices,
especially in light of the risk presented from the relative high levels of out-of-area lending
and credit concentrations. Examiners commented that, on numerous notes, loan covenants
were not followed. Examiners recommended that management identify all notes where
loan covenants were not being followed and implement a process to review covenant
compliance. In the area of loan review, examiners recommended that management
evaluate whether long-term financed loans were being reviewed at appropriate intervals
and implement a process to address follow-up items recommended by the loan reviewer.
Management was also reminded of the risk associated with the bank’s credit
concentrations. At that time, Hillcrest had seven large individual borrower credit
concentrations and an out-of-area concentration. CRE and ADC loan concentrations were
also present and, according to examiners, were being monitored by the Board.

Examiners reported that bank oversight was led by what appeared to be an active
Directorate and an involved Chairman and Chief Executive Officer. Management
information systems and formal reporting provided excellent data to assist in identifying,
measuring, monitoring, and controlling risk. While examiners identified apparent
violations of law, examiners noted that these violations were not a primary concern.
Apparent violations identified during the examination consisted of: an instance in which


                                              12
an appraisal was completed by an unqualified individual as defined in Part 323 of the
FDIC Rules and Regulations, - Appraisals; seven credits for which relevant documents
relating to title insurance, property insurance, or financial statements were not properly
maintained in violation of the KAR; and an asset from the collection of a debt that was in
violation of the KAR because the asset remained on the bank’s balance sheet in excess of
1 year.

2007 Supervisory Activities

The FDIC’s May 2007 examination found that Hillcrest’s overall condition had declined
from strong to satisfactory. Examiners assigned a composite “2” CAMELS rating,
reflecting declines in the bank’s Asset Quality and Management ratings. Liquidity
continued to be rated as satisfactory. Examiners concluded that capital remained strong
relative to the bank’s overall risk profile and assigned a Capital component rating of “1.”

Examiners downgraded Hillcrest’s Asset Quality rating to a “2” and reported that the level
of criticized assets increased significantly from 5 percent to 46 percent of Tier 1 Capital
plus the ALLL since the prior examination. The level of criticized assets at this
examination was the highest dollar volume and percentage of Tier 1 Capital plus the
ALLL the bank had experienced in over 10 years. Examiners reported that most of the
adverse classifications were the direct result of a softening in the housing and
development sector, weakening economic conditions in the Florida real estate market, or
inadequate and improper monitoring and handling of credit relationships by the loan
officer. Several of the criticized loans were characterized by borrowers with leveraged
financial statements, limited or inadequate income sources, and/or marginal/inadequate
collateral protection.

Credit administration and loan underwriting were found to be generally satisfactory.
However, examiners identified documentation deficiencies and several instances in which
the terms and conditions described in the loan covenants and/or presentations to the
Executive Loan Committee were not met or followed. With respect to loan
concentrations, examiners reported that management had appropriately addressed a
majority of the six key elements for establishing a risk management framework that
effectively identifies, monitors, and controls CRE concentration risk as defined in the
December 2006 Joint Guidance. However, examiners recommended that management
take the following actions to strengthen the bank’s overall risk management program:

      Establish CRE concentration limits.

      Further stratify the CRE portfolio to distinguish between short-term construction,
       land development, and longer-term permanent financed lending.

      Develop real estate concentration reports that further stratify the portfolio
       segments by the bank’s primary market areas.




                                             13
      Perform portfolio-level stress testing or sensitivity analysis to quantify the impact
       of changing economic conditions on asset quality, earnings, and capital.

Management stated that it would consider the examiners’ recommendations.

Examiners reported that management’s performance was satisfactory relative to the bank’s
size, complexity, and risk profile. The Management component rating was downgraded to
a “2.” Although examiners reported that management operated the bank in a generally
sound manner, examiners also noted that the report contained recommendations, some of
which were repeated from prior examinations, for various areas that deserved the Board’s
attention. Among other things, examiners recommended that management closely
monitor and assess the staffing levels in the loan review section and the internal audit
department to ensure that these areas would be able to handle the volume of work going
forward. In light of the bank’s 34-percent loan growth in 2006, recent asset quality
problems, the declining economic conditions in various parts of the United States, and the
bank’s recent expansion into Texas and Colorado, it appeared that additional resources in
the loan review and internal audit areas would be beneficial.

A Hillcrest Board Director disagreed that additional resources were needed in these areas
based on the Director’s personal observations that: a majority of the bank’s credits
involved attorney-prepared documents; most credits had received a post-closing review;
the median amounts of the bank’s loans were very high, and as a result, the total number
of loans in the bank were low; the bank had few commercial and industrial loans; and the
bank had a significant amount of land, bridge, and construction loans, with the latter being
partly reviewed through draw requests and the inspection process.

Examiners also recommended that management establish an overall tracking system to
monitor corrective actions taken regarding regulatory examination and audit findings.
Further, although examiners found management’s methodology for calculating and
evaluating the ALLL to be adequate, examiners made recommendations to revise the
ALLL policy and methodology to incorporate provisions of the December 13, 2006
Interagency Policy Statement on the ALLL. Management responded that it would develop
and implement these recommendations. No new violations of laws and regulations were
reported; however, repeat infractions regarding appraisals and documentation deficiencies
from the May 2006 OSBC examination occurred.

With the benefit of hindsight, although examiners downgraded the Asset Quality rating to
a “2” as a result of Hillcrest’s weak practices in this area, a lower Asset Quality rating
may have been warranted. A “2” rating indicates satisfactory asset quality and credit
administration practices and a level and severity of classifications and other weaknesses
warranting a limited level of supervisory attention. A “2” rating also indicates risk
exposure commensurate with capital protection and management’s abilities. By
comparison, a “3” rating indicates that asset quality or credit administration practices are
less than satisfactory. In addition, trends may be stable or indicate deterioration in asset
quality or an increase in risk exposure. The level and severity of classified assets, other




                                             14
weaknesses, and risks require an elevated level of supervisory concern. There is also
generally a need to improve credit administration and risk management practices.

Hillcrest’s significant exposure to ADC loans coupled with the emerging deterioration in
the real estate market and weak risk management practices in some areas appear to be
more consistent with the definition of a “3” Asset Quality rating. Had the FDIC assigned
a lower Asset Quality rating, it is more likely that an informal enforcement action may
have been pursued. Such an action would have increased supervisory oversight of
Hillcrest and resulted in a more formal commitment from management to correct the
weaknesses identified by examiners.

We asked FDIC examiners and other FDIC officials whether a further downgrade and/or
enforcement action were considered based on the results of the 2007 examination. They
stated that, based on the bank’s asset quality deterioration, a component “3” Asset Quality
rating was considered. However, because Hillcrest’s management had adequately
addressed its asset quality problems in 2002, examiners believed that a downgrade to a “2”
was appropriate at the time. In addition, although the bank was considered Well
Capitalized for PCA purposes and received a Capital component rating of “1,” FDIC
officials indicated that, in hindsight, a lower Capital component rating may have been
appropriate given the bank’s risk profile.

2008 Supervisory Activities

Based on the results of the OSBC’s 2008 examination, examiners determined that the
overall condition of the bank had declined because of large increases in non-accrual loans,
reliance on noncore funding sources, large loan losses, and asset quality concerns due to
the high levels of CRE exposure. Examiners downgraded the bank’s CAMELS composite
rating and all component ratings to a “3.” The examination report concluded that
management’s increasing exposure to CRE during a time of nationwide CRE market
decline was a concern, especially considering the possibility of additional problems in the
future. Examiners found asset quality to be less than satisfactory. Adversely classified
loans had nearly doubled and represented 74 percent of Tier 1 Capital and the ALLL. A
majority of the classified assets were ADC loans located in different markets across the
nation. Significant declines in the value of properties nationwide had caused some
borrowers to be unable to obtain permanent financing, since the present values of projects
were well below the loan balances.

Examiners noted that Hillcrest’s management had already taken significant positive
actions to strengthen credit risk, but examiners reported that, given asset quality trends and
continued nationwide CRE weakness, the Board should review staffing to determine its
sufficiency for effective loan administration. During the examination, a group of
shareholders purchased more than $40 million of non-performing loans and owned real
estate. Removing these assets from the list of adversely classified assets reduced the
Adversely Classified Items Coverage ratio to approximately 53 percent, a level still
warranting supervisory concern and attention.




                                             15
Internal risk identification appeared adequate, and management had recognized losses in
several credits in a timely manner. Examiners recommended that the Board review
staffing levels in the commercial lending area to determine if personnel and work-out
resources were sufficient to effectively administer the loan portfolio to prevent further
erosion of asset quality. Examiners reported that management was successful in
correcting the majority of technical credit administration exceptions, but expressed
concern that many of those exceptions were associated with loans on the bank’s Watch
List. Examples of exceptions included incomplete or inadequate appraisals, missing or
outdated financial information, and missing or outdated income information on borrowers.
In addition, examiners made several recommendations to enhance the bank’s loan policy,
which management committed to address.

Hillcrest’s Board adopted a BBR to address the weaknesses noted during the May 2008
examination. The BBR, which became effective on September 24, 2008, included
provisions for reducing adversely classified assets, improving the internal and external
loan grading process, addressing credit administration and underwriting weaknesses,
reducing loan concentration risk, improving the methodology for determining the
appropriateness of the ALLL, implementing a written strategic plan that included capital
and profitability targets, and improving asset and liability management policies and
practices. FDIC and OSBC officials told us that serious consideration was given to a
stronger enforcement action at this time. However, because bank management had
recognized its asset quality problems and was working to take corrective action, a stronger
enforcement action was not pursued.

The FDIC and the OSBC conducted a joint visitation in November 2008 to follow up on
management’s efforts to address the deterioration in asset quality, the elevated CRE
concentrations, and the liquidity concerns identified in the May 2008 examination and to
assess management’s actions and plans relative to the outstanding BBR. Examiners found
that the bank’s loan quality had continued to deteriorate since the May 2008 OSBC
examination. Despite the $40 million shareholder asset purchase and the $9.9 million in
charge-offs since the OSBC examination, the Adversely Classified Items Coverage ratio
had increased from 53 percent (after the shareholder purchase) to 66 percent. The
visitation report noted that management appeared to have completed the most significant
items in the BBR and was addressing each of its provisions.

According to the visitation report, although management had taken positive steps,
deterioration in the loan portfolio continued to result from management’s prior risk
selection decisions and aggressive loan growth strategies. Vulnerability to current adverse
economic trends had been exacerbated by concentrations of the loans in weak markets
outside of the bank’s local area. This is evident in the following breakout of Hillcrest’s
Watch List loans originated in other markets: Florida – 30 percent, Pennsylvania – 14
percent, Nevada - 10 percent, and Arizona – 9 percent. Problems encountered with these
credits often involved extreme collateral devaluation, extended project duration due to soft
demand, and illiquid borrowers and guarantors.




                                             16
Hillcrest’s goal of reducing its loan concentrations by selling loans was generally
unsuccessful due to the tight credit market as well as the size and types of its loans.
Examiners reported that management was closely monitoring its loan concentrations,
including performing in-depth analyses of each concentrated market. In addition,
Hillcrest’s liquidity position remained a concern due to the bank’s continued dependence
on volatile liabilities. Approximately 51 percent of the bank’s funding consisted of
Federal Home Loan Bank (FHLB) borrowings and brokered deposits. Further, Hillcrest’s
Total Risk-Based Capital ratio had declined since the prior OSBC examination and was
10.89 percent as of September 30, 2008. The parent holding company’s owners continued
to seek outside investors. However, no new capital sources had materialized.

In meetings with management, examiners made recommendations for the bank to
periodically assess whether skill levels in the credit department were appropriate regarding
loan workouts, ensure that the use of interest reserves was appropriate, and require that
monthly liquidity monitoring reports be submitted to the Board.

2009 Supervisory Activities

The May 2009 examination report indicated that the bank’s overall condition had declined
from less than satisfactory to deficient. Examiners assigned Hillcrest a composite “4”
CAMELS rating, reflecting declines in all CAMELS component ratings. Asset quality
was critically deficient, and its rapid deterioration had materially compromised the bank’s
condition. The Adversely Classified Items Coverage ratio rose to an excessive
179 percent, increasing by approximately $179 million and representing 17 percent of
total assets. Based on the results of the 2009 examination, examiners met with the Board
on June 24, 2009 and informed them that the BBR would be replaced by a formal
enforcement action. Hillcrest’s Board subsequently stipulated to the provisions of a C&D
with the FDIC and the OSBC, which became effective on October 21, 2009. Among other
things the C&D required the bank to:

      engage an independent consultant to analyze and assess the performance and needs
       of the Bank’s senior executive officers and prepare a written report to the Board;

      develop a Capital Plan, within 10 days of the effective date of the C&D, to achieve
       and maintain a Tier 1 Leverage Capital ratio of not less than 10 percent and a Total
       Risk-Based Capital ratio of not less than 13 percent;

      not declare or pay cash dividends without the prior written approval of the FDIC
       and the OSBC;

      eliminate all assets from its books by either charge-off or collection of those assets
       that were classified as loss by examiners in the May 2009 examination report;

      develop and complete a written plan to decrease the bank’s risk exposure for each
       asset in excess of $2 million classified “substandard” or “doubtful” in the May
       2009 examination report; and


                                             17
      develop a written plan for systematically reducing and monitoring the bank’s CRE
       concentration.

The FDIC and the OSBC conducted a limited scope visitation on November 12, 2009, to
assess the bank’s performance since the May 2009 examination. The visitation focused on
the bank’s asset quality, capital adequacy, and liquidity. The visitation report stated that:

      Despite some improvements resulting from prior examiner recommendations, the
       overall financial condition of the bank had deteriorated since the prior
       examination.

      Asset quality had continued to deteriorate, with larger-than-projected losses and
       increased volumes of nonperforming assets that led to a tremendous operating loss
       for the year.

      Capital was of the utmost concern. Negative earnings had diminished the bank’s
       capital levels, and no progress had been made in raising additional capital.

      Management was making measurable progress in improving liquidity and adhering
       to its plans to reduce reliance on wholesale funds and increase asset-based
       liquidity.

2010 Supervisory Activities

The June 2010 examination report stated that the bank’s overall condition had declined
from deficient to “critically poor,” and examiners assigned a composite “5” CAMELS
rating, reflecting declines in the Capital and Sensitivity to Market Risk component ratings.
At that time, a capital injection of approximately $170 million was needed to comply with
the capital mandate of the C&D. Examiners noted that asset quality deterioration was
proving to be insurmountable and had depleted capital. Loan losses had been substantial,
with losses of nearly $50 million, over $107 million, and more than $62 million in 2008,
2009, and the first 6 months of 2010, respectively.

Despite its efforts, management had been unable to improve the overall condition of the
bank or attract capital needed to ensure the future viability of the institution. While
progress had been made in several areas to comply with the October 2009 C&D,
examiners noted that several areas required further attention such as restoring capital,
reducing problem assets, maintaining an appropriate ALLL, reducing concentrations, and
developing a profit plan. Examiners recommended that the Board focus its full attention
on (1) developing a Capital Plan that results in an immediate capital injection, (2) devising
strategies to improve earnings, and (3) providing for an appropriate ALLL.




                                             18
Supervisory Lessons Learned

A general lesson learned with respect to weak risk management practices is that early
supervisory intervention is prudent, even when an institution is considered Well
Capitalized and has relatively few classified assets. As described below, the FDIC could
have placed greater emphasis on Hillcrest’s risk management practices when determining
supervisory responses to key risks identified at earlier examinations.

In hindsight, it may have been prudent for examiners to have placed greater emphasis on
Hillcrest’s vulnerability to an economic downturn during earlier examinations, especially
given the bank’s significant CRE and ADC loan concentrations and the fact that history
has demonstrated that CRE markets can change rapidly. For example, examiners could
have recommended that Hillcrest focus greater attention on analyzing the potential impact
of a downturn in the economy on its operations, including the need for a viable plan to
mitigate the bank’s concentration risks. Further, the FDIC could have placed greater
emphasis on Hillcrest’s management practices and risk profile when assigning Asset
Quality and Capital component ratings during the 2007 examination. Once the broad and
rapid economic downturn began, the effectiveness of supervisory enforcement actions to
improve the bank’s financial condition became limited.

We recognize that the supervisory thresholds in the Joint Guidance do not constitute limits
on an institution’s lending activity and are intended to serve as high-level indicators to
identify institutions potentially exposed to CRE concentration risk. We also recognize
that examiners generally found Hillcrest’s underwriting to be adequate. Nevertheless,
examiners could have placed greater emphasis on the inherent risk posed to the institution
from its emphasis on CRE and ADC lending and the reluctance of bank management to
address staffing levels and other examiner concerns. Such emphasis may have influenced
the Board and management to reduce its CRE and ADC exposure prior to the downturn in
the real estate market. It may also have helped focus management’s attention on
developing a contingency plan to mitigate its risks and make the investments needed to
strengthen the bank’s credit function.

The FDIC has taken a number of actions to enhance its supervision program based on the
lessons learned from failures during the financial crises. With respect to the issues
discussed in this report, the FDIC has, among other things, issued FIL-22-2008, Managing
CRE Concentrations in a Challenging Environment, which reiterated broad supervisory
expectations with regard to managing risk associated with CRE and ADC concentrations.
Specifically, the guidance re-emphasized the importance of strong capital and loan loss
allowance levels and robust credit risk management practices. It also articulated the
FDIC’s concerns regarding the need for proper controls over interest reserves used for
ADC loans, stating that examiners have noted an inappropriate use of interest reserves
when the underlying real estate project is not performing as expected.

Further, the FDIC completed a training initiative in 2010 for its entire supervisory
workforce that emphasized the need to assess a bank’s risk profile using forward-looking
supervision. The training addressed the importance of considering management practices,



                                            19
as well as current financial performance or trends, when assigning ratings, consistent with
existing examination guidance.

Implementation of PCA

Section 38, Prompt Corrective Action, of the FDI Act establishes a framework of
mandatory and discretionary supervisory actions pertaining to all institutions. The section
requires regulators to take progressively more severe actions, known as “prompt
corrective actions,” as an institution’s capital level deteriorates. The purpose of section 38
is to resolve problems of insured depository institutions at the least possible long-term cost
to the DIF. Part 325, Capital Maintenance, of the FDIC Rules and Regulations defines
the capital measures used in determining the supervisory actions that will be taken
pursuant to section 38 for FDIC-supervised institutions. Part 325 also establishes
procedures for the submission and review of capital restoration plans and for the issuance
of directives and orders pursuant to section 38. The FDIC is required to closely monitor
the institution’s compliance with its capital restoration plan, mandatory restrictions
defined under section 38(e), and discretionary safeguards (if any) imposed by the FDIC
to determine if the purposes of PCA are being achieved.

Based on the supervisory actions taken with respect to Hillcrest, the FDIC properly
implemented applicable PCA provisions of section 38. Hillcrest was considered Well
Capitalized until the filing of its June 30, 2009 Call Report, at which time the institution
fell to Adequately Capitalized. Specifically, the bank’s Total Risk-Based Capital Ratio
fell to 8.85 percent, below the 10-percent minimum threshold for maintaining a Well
Capitalized position. As a result, pursuant to section 29, Hillcrest could not accept, renew,
or rollover any broker deposits unless it applied for, and the FDIC granted, a waiver. The
FDIC approved two brokered deposit waiver requests from Hillcrest in September 2009
and January 2010.

In a letter dated February 8, 2010, the FDIC notified Hillcrest’s Board that the bank had
fallen to Undercapitalized based on the December 31, 2009 Call Report. The notification
letter included a reminder regarding the restrictions imposed on Undercapitalized
institutions, including restrictions on dividends; other capital distributions; management
fees; asset growth; and acquisitions, branching, or entering new lines of business as
described in sections 38(d)(1), 38(d)(2), 38(e)(3), and 38(e)(4) of the FDI Act. Based on
the March 31, 2010 Call Report, the FDIC notified Hillcrest’s Board, in a letter dated
May 12, 2010, that the bank had fallen to Significantly Undercapitalized.

In a letter dated July 28, 2010, the FDIC notified Hillcrest’s Board that the bank had fallen
to Critically Undercapitalized based on the institution’s June 30, 2010 Call Report. The
notification letter indicated that the FDIC was required to place Hillcrest into receivership
within 90 days of July 28, 2010 (or by October 26, 2010), unless the FDIC determined that
a different action was warranted. Hillcrest continued to explore strategic alternatives for
improving its capital position, such as seeking new investors or selling its retail branches.
However, these efforts were not successful. As a result, the OSBC closed Hillcrest on




                                             20
October 22, 2010. Table 4 illustrates the rapid decline in Hillcrest’s capital category
between 2009 and 2010.

Table 4: Hillcrest’s Capital Levels Relative to PCA Thresholds for Well Capitalized
         Institutions
 Year Ended        Tier 1        Tier 1 Risk-      Total Risk-     PCA Capital Category
                   Leverage      Based Capital     Based Capital
                   Capital
 Threshold for
 Well
 Capitalized       5% or more    6% or more        10% or more     PCA Capital Category
 Dec-05            9.31          10.61             11.76           Well Capitalized
 Dec-06            9.63          9.98              11.23           Well Capitalized
 Dec-07            9.19          9.39              10.65           Well Capitalized
 Dec-08            8.08          9.04              10.29           Well Capitalized
 Jun-09            6.46          7.59              8.85            Adequately Capitalized
 Dec-09            3.88          5.15              6.41            Undercapitalized
 Mar 31-10         3.53          4.68              5.95            Significantly Undercapitalized
 June 30-10        0.58          0.81              1.63            Critically Undercapitalized
Source: UBPRs for Hillcrest.

Capital Plans. On October 1, 2009, Hillcrest submitted a Capital Plan in anticipation of
the C&D. The plan described three scenarios: (1) a base scenario that assumed no
significant actions would be taken with regard to the sale of assets or deposits, (2) a sale of
substantially all of the assets and deposits in the bank’s Kansas City Metropolitan market
(referred to herein as the KC Franchise), and (3) a sale of the KC Franchise plus the sale
of the bank’s non-performing assets. On November 20, 2009, the FDIC formally rejected
the bank’s Capital Plan based on concerns with respect to Hillcrest’s ability to implement
either or both of the latter scenarios in a timely manner in the then current economic
environment. Further, the FDIC noted that the Capital Plan did not provide adequate
details of the proposed asset/deposit sales. Moreover, the Capital Plan did not include
contingency plans or specific action dates. The FDIC directed the bank’s Board to
provide a new or revised Capital Plan to the FDIC and the OSBC by December 14, 2009.

On December 14, 2009, Hillcrest submitted a revised Capital Plan predicated on the
successful sale of the bank’s Texas branches by March 31, 2010, along with separate
capital injections of $40 million, $45 million, and $52.5 million, to raise capital ratios to
the required levels by September 30, 2010. On January 21, 2010, the FDIC requested that
Hillcrest provide the following information: (1) revised projections reflecting year-end
2009 operating results, (2) support for the Capital Plan’s projections of other real estate
and troubled asset reductions without incurring additional losses, and (3) specific
information regarding the source and timing of projected equity injections. This
information was requested to be submitted to the supervisory agencies by
February 12, 2010.

On February 17, 2010, the FDIC received a revised Capital Plan, dated February 12, 2010,
from Hillcrest. The new plan contained revised projections outlining increased provisions
and charge-offs, the impact of selling Hillcrest’s Florida loan participations, proposals to
sell Hillcrest’s Texas branches, and new potential capital investors. On March 3, 2010,


                                              21
the FDIC notified Hillcrest’s Board of the FDIC’s acceptance of the Capital Plan, with the
understanding that Hillcrest would identify the source(s) of its equity investors and the
Texas sale would be consummated by June 30, 2010. The FDIC’s notification stated that
if the components of the Capital Plan were not accomplished by June 30, 2010, a revised
Capital Plan would need to be submitted by July 16, 2010. However, the FDIC never
received an updated Capital Plan from Hillcrest.

Although Hillcrest explored a number of strategic alternatives for raising capital, such as
working with private equity firms to obtain investments and applying for funds under the
Department of the Treasury’s Capital Purchase Program, these efforts were ultimately not
successful. The OSBC closed the institution on October 22, 2010 because it did not have
enough capital to continue safe and sound operations.

OIG Evaluation of Corporation Comments

The Director, DSC, provided a written response, dated May 12, 2011, to a draft of this
report. In the response, the Director reiterated the OIG’s conclusions regarding the causes
of Hillcrest’s failure and described key supervisory actions that the FDIC and the OSBC
took to address the bank’s deteriorating financial condition. The response also stated that
RMS recognized the threat that institutions with high-risk profiles, such as Hillcrest, pose
to the DIF and that RMS had issued a FIL to banks on Managing Commercial Real Estate
Concentrations in a Challenging Environment that re-emphasizes the importance of robust
credit risk-management practices for institutions with concentrated CRE exposures.
Additionally, the response indicated that RMS had issued updated guidance reminding
examiners to take appropriate action when those risks are imprudently managed.




                                            22
                                                                             Appendix 1

                   Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, as amended by
the Financial Reform Act, which provides, in general, that if the DIF incurs a material
loss with respect to an insured depository institution, the Inspector General of the
appropriate Federal banking agency shall prepare a report to that agency, reviewing the
agency’s supervision of the institution. The Financial Reform Act amends section 38(k)
by increasing the MLR threshold from $25 million to $200 million for losses that occur
for the period January 1, 2010 through December 31, 2011. The FDI Act requires that
the report be completed within 6 months after it becomes apparent that a material loss has
been incurred.

Our audit objectives were to (1) determine the causes of Hillcrest’s failure and the
resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of Hillcrest,
including the FDIC’s implementation of the PCA provisions of section 38 of the FDI Act.

We conducted this performance audit from December 2010 to March 2011 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Scope and Methodology

The scope of this audit included an analysis of Hillcrest’s operations from April 1, 2005
until its failure on October 22, 2010. Our review also entailed an evaluation of the
regulatory supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and techniques:

      Analyzed examination and visitation reports prepared by the FDIC and the OSBC
       between April 2005 and June 2010.

      Reviewed the following:

           o Selected examination work papers prepared by the FDIC between 2007 to
             2010 pertaining to examinations and visitations.

           o Bank data contained in UBPRs and Call Reports.

           o Correspondence in the Kansas City Regional Office and Kansas City Field
             Office.



                                            23
                                                                             Appendix 1

                   Objectives, Scope, and Methodology

           o Various other reports prepared by the Division of Resolutions and
             Receiverships (DRR) and DSC relating to the bank’s closure. We also
             reviewed records provided by DRR that would provide insight into the
             bank’s failure.

           o Information in the FDIC’s Virtual Supervisory Information on the Net
             system.

           o Financial statements for Hillcrest for 2005 through 2010.

           o Federal Reserve Bank inspection reports for 2005, 2008, and 2009.

           o Pertinent DSC policies, procedures, and guidelines.

      Interviewed the following officials:

           o DSC officials in the Kansas City Regional Office.

           o DSC examiners from the Kansas City Field Office.

           o OSBC examiners and officials in Topeka, Kansas.

Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with our audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in the FDIC’s systems, reports,
examination reports, and interviews of DSC and OSBC examiners to obtain an
understanding of Hillcrest’s management controls pertaining to the causes of failure and
material loss as discussed in the body of this report.

We obtained data from various FDIC systems, but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination and visitation reports, correspondence files,
and testimonial evidence to corroborate data obtained from systems, which was used to
support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this MLR, we did not assess the strengths and weaknesses
of DSC’s annual performance plan in meeting the requirements of the Results Act



                                              24
                                                                            Appendix 1

                   Objectives, Scope, and Methodology

because such an assessment was not part of the audit objectives. DSC’s compliance with
the Results Act is reviewed in OIG program audits of DSC operations.
Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with the provisions of PCA and limited tests to
determine compliance with certain aspects of the FDI Act and the FDIC Rules and
Regulations. The results of our tests are discussed, where appropriate, in the report.
Additionally, we assessed the risk of fraud and abuse related to our objectives in the
course of evaluating audit evidence.

Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that
had resulted in a material loss to the DIF. The memorandum also indicated that the OIG
planned to provide more comprehensive coverage of those issues and make related
recommendations, when appropriate. Since May 1, 2009, the OIG has issued additional
MLR reports related to failures of FDIC-supervised institutions, and these reports can be
found at www.fdicig.gov. In addition, the OIG issued an audit report entitled, Follow-up
Audit of FDIC Supervision Program Enhancements (Report No. MLR-11-010), in
December 2010. The objectives of the audit were to (1) determine the actions that the
FDIC has taken to enhance its supervision program since May 2009, including those
specifically in response to the May 2009 memorandum, and (2) identify trends and issues
that have emerged from subsequent MLRs.

Further, with respect to more in-depth coverage of specific issues, in May 2010, the OIG
initiated an evaluation of the role and Federal regulators’ use of the Prompt Regulatory
Action provisions of the FDI Act (section 38, Prompt Corrective Action, and section 39,
Standards for Safety and Soundness) in the banking crisis.




                                           25
                                                                                   Appendix 2

                                 Glossary of Terms

Term                Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) into three categories: Substandard, Doubtful, and Loss.
Allowance for       The ALLL is an estimate of uncollectible amounts that is used to reduce
Loan and Lease      the book value of loans and leases to the amount that is expected to be
Losses (ALLL)       collected. It is established in recognition that some loans in the
                    institution’s overall loan and lease portfolio will not be repaid. Boards of
                    directors are responsible for ensuring that their institutions have controls
                    in place to consistently determine the allowance in accordance with the
                    institutions' stated policies and procedures, generally accepted accounting
                    principles, and supervisory guidance.
Call Report         Reports of Condition and Income, often referred to as Call Reports,
                    include basic financial data for insured commercial banks in the form of a
                    balance sheet, an income statement, and supporting schedules. According
                    to the Federal Financial Institutions Examination Council’s (FFIEC)
                    instructions for preparing Call Reports, national banks, state member
                    banks, and insured nonmember banks are required to submit a Call Report
                    to the FFIEC’s Central Data Repository (an Internet-based system used
                    for data collection) as of the close of business on the last day of each
                    calendar quarter.

Cease and Desist    A C&D is a formal enforcement action issued by a financial institution
Order (C&D)         regulator to a bank or affiliated party to stop an unsafe or unsound
                    practice or a violation of laws and regulations. A C&D may be
                    terminated when the bank’s condition has significantly improved and the
                    action is no longer needed or the bank has materially complied with its
                    terms.
Concentration       A concentration is a significantly large volume of economically related
                    assets that an institution has advanced or committed to a certain industry,
                    person, entity, or affiliated group. These assets may, in the aggregate,
                    present a substantial risk to the safety and soundness of the institution.




                                             26
                                                                                  Appendix 2
                                Glossary of Terms

Federal Home        The Federal Home Loan Bank System provides liquidity to member
Loan Bank           institutions that hold mortgages in their portfolios and facilitates the
(FHLB)              financing of mortgages by making low-cost loans, called advances, to its
                    members. Advances are available to members with a wide variety of
                    terms to maturity, from overnight to long term, and are collateralized.
                    Advances are designed to prevent any possible loss to FHLBs, which also
                    have a super lien (a lien senior or superior to all current and future liens
                    on a property or asset) when institutions fail. To protect their position,
                    FHLBs have a claim on any of the additional eligible collateral in the
                    failed bank. In addition, the FDIC has a regulation that reaffirms FHLB
                    priority, and FHLBs can demand prepayment of advances when
                    institutions fail.
Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325,
(PCA)               subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                    Regulations, section 325.101, et. Seq. implements section 38, Prompt
                    Corrective Action, of the FDI Act, 12 U.S.C. section 1831(o), by
                    establishing a framework for taking prompt supervisory actions against
                    insured nonmember banks that are less than adequately capitalized. The
                    following terms are used to describe capital adequacy: (1) Well
                    Capitalized, (2) Adequately Capitalized, (3) Undercapitalized,
                    (4) Significantly Undercapitalized, and (5) Critically Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective action
                    or compliance with the PCA statute with respect to an institution that falls
                    within any of the three undercapitalized categories.
Uniform Bank        The UBPR is an individual analysis of financial institution financial data
Performance         and ratios that includes extensive comparisons to peer group performance.
Report (UBPR)       The report is produced by the FFIEC for the use of banking supervisors,
                    bankers, and the general public and is produced quarterly from data
                    reported in Reports of Condition and Income submitted by banks.
Uniform             Financial institution regulators and examiners use the UFIRS to evaluate a
Financial           bank’s performance in six components represented by the CAMELS
Institutions        acronym: Capital adequacy, Asset quality, Management practices,
Rating System       Earnings performance, Liquidity position, and Sensitivity to market risk.
(UFIRS)             Each component, and an overall composite score, is assigned a rating of 1
                    through 5, with 1 having the least regulatory concern and 5 having the
                    greatest concern.




                                             27
                                                               Appendix 3

                        Acronyms
ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
BBR      Bank Board Resolution
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and
         Sensitivity to Market Risk

CRE      Commercial Real Estate
DIF      Deposit Insurance Fund
DRR      Division of Resolutions and Receiverships
DSC      Division of Supervision and Consumer Protection
FDI      Federal Deposit Insurance
FFIEC    Federal Financial Institution’s Examination Council
FHLB     Federal Home Loan Bank
FIL      Financial Institution Letter
HBI      Hillcrest Bancshares, Inc.
KAR      Kansas Administrative Regulations
MLR      Material Loss Review
OIG      Office of Inspector General
ORL      Offsite Review List
OSBC     Kansas Office of the State Bank Commissioner
PCA      Prompt Corrective Action
UBPR     Uniform Bank Performance Report




                               28
                                                                             Appendix 4

                     Corporation Comments
   _________________________________________________________



Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990                     Division of Risk Management Supervision

                                                                           May 12, 2011


TO:               Mark Mulholland
                  Deputy Assistant Inspector General for Audits

                  /Signed/
FROM:             Sandra L. Thompson
                  Director

SUBJECT:          FDIC Response to the Draft Audit Report Entitled, Material Loss Review of
                  Hillcrest Bank, Overland Park, Kansas (Assignment No. 2011-008))

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, and as amended by the Dodd-
Frank Wall Street Reform and Consumer Protection Act, the Federal Deposit Insurance
Corporation’s (FDIC) Office of Inspector General (OIG) conducted a Material Loss Review of
Hillcrest Bank (Hillcrest), which failed on October 22, 2010. This memorandum is the response
of the Division of Risk Management Supervision (RMS) to the OIG’s Draft Report received on
April 15, 2011.

Hillcrest failed due to the Board’s and management’s aggressive growth strategy centered on
high concentration of acquisition, development and construction (ADC) loans. The origination
and acquisition of ADC loans outside their local region made Hillcrest vulnerable to economic
downturns and decline of the real estate market within those lending areas. Inadequate oversight
of Hillcrest’s elevated risk profile and lax credit administration practices contributed to the
deterioration in the quality of the loan portfolio, causing substantial losses that eliminated
earnings and depleted capital. Hillcrest was unable to raise additional capital to support a safe
and sound operation.

From 2005 to 2010, the FDIC and the Kansas Office of the State Bank Commissioner (OSBC)
conducted six onsite risk management examinations, two onsite visitations and ongoing offsite
monitoring. As early as 2006 examiners noted the risk in the relatively high levels of out-of-area
lending and credit concentrations. In 2007 examiners recommended that management strengthen
Hillcrest risk management program to stem its declining condition. With further deterioration
noted at the 2009 examination, examiners downgraded Hillcrest and issued a cease and desist
order.

RMS recognized the threat that institutions with high risk profiles, such as Hillcrest, pose to the
Deposit Insurance Fund and has issued a Financial Institution Letter (FIL) to banks on Managing
Commercial Real Estate Concentrations in a Challenging Environment that re-emphasizes the
importance of robust credit risk-management practices for institutions with concentrated CRE
exposures. Additionally, RMS issued updated guidance reminding examiners to take appropriate
action when those risks are imprudently managed.

Thank you for the opportunity to review and comment on the Report.

                                                  29
